fi

C@OCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-241

IN RE UMB BANK, N.A., and
COLORADO BONDSHARES, a Tax-Exempt Fund,
Petitioners,
Vv.

LANDMARK TOWERS ASSOCIATION, INC., a
Colorado nonprofit corporation, by Miller Frishman
Group, LLC as Receiver for 7677 East Berry
Avenue Associates, L.P., its Declarant,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 2998 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of November, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . :
State of Nebraska : Le ,
My Commission Expires Nov 24, 2020 ig

Notary Public Affiant

 

 

38874
